   DEPARTMENT OF HOMELAND SECURITY
   `


        Office of Inspector General

       Challenges Remain in Securing the Nation’s
                  Cyber Infrastructure




OIG-07-48                                 June 2007
                                                    1
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                      June 5, 2007

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the National Cyber Security Division’s
implementation of its mission to coordinate security of the nation’s cyber infrastructure. It is based
on interviews with employees and officials of relevant agencies and institutions, direct observations,
technical scans, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
Table of Contents/Abbreviations

  Executive Summary ...................................................................................................................1

  Background ................................................................................................................................2

  Results of Audit .........................................................................................................................4

       Progress Made In Securing Cyberspace ..........................................................................4

       Better Management of Strategic Plan Is Needed ............................................................5
         Establish Priorities to Ensure Critical Tasks Are Completed .........................................5
         NCSD Needs to Improve the Monitoring of Its Milestones ...........................................6
         Recommendations ...........................................................................................................7
         Management Comments and OIG Analysis....................................................................8
         Better Defined Performance Measures Are Needed .......................................................8
         Recommendation ..........................................................................................................10
         Management Comments and OIG Analysis..................................................................10
         Expanded Incident Reporting Analysis Will Improve Identification and Response
         to Cyber Incidents .........................................................................................................11
         Recommendations .........................................................................................................13
         Management Comments and OIG Analysis..................................................................13

       Improved Information Sharing and Communications Will Enhance Cyber
       Infrastructure Security....................................................................................................14
       Recommendations..............................................................................................................17
       Management Comments and OIG Analysis ......................................................................18

       Revised Certification and Accreditation Will Satisfy FISMA Requirements............19
       Recommendations..............................................................................................................21
       Management Comments and OIG Analysis ......................................................................22

Appendices
  Appendix A:            Purpose, Scope, and Methodology .................................................................24
  Appendix B:            Management Comments to the Draft Report .................................................26
  Appendix C:            NCSD Major Functions and Responsibilities ................................................35
  Appendix D:            Federal Agency Incident Categories ..............................................................37
  Appendix E:            Major Contributors to this Report ..................................................................38
  Appendix F:            Report Distribution.........................................................................................39




                                Challenges Remain in Securing the Nation’s Cyber Infrastructure
Table of Contents/Abbreviations

Abbreviations
  CS&C          Cyber Security and Communications
  CS&T          Cyber Security and Telecommunications
  DHS           Department of Homeland Security
  FISMA         Federal Information Security Management Act
  IT            Information Technology
  NCSD          National Cyber Security Division
  NIST          National Institute of Standards and Technology
  OIG           Office of Inspector General
  OMB           Office of Management and Budget
  PART          Program Assessment Rating Tool
  US-CERT       United States Computer Emergency Readiness Team




                    Challenges Remain in Securing the Nation’s Cyber Infrastructure
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                We audited the National Cyber Security Division to determine whether: (1) it
                is working collaboratively with the public, private, and international entities to
                secure cyberspace and cyber assets; (2) it is effectively managing the
                implementation of The National Strategy to Secure Cyberspace; and
                (3) security controls were effectively implemented on two mission support
                systems (Einstein and Cybercop Portal).

                Since our last review in 2004, the National Cyber Security Division has taken
                actions to further implement The National Strategy to Secure Cyberspace. For
                example, the division has established a fully operational incident handling
                center (United States Computer Emergency Readiness Team). The National
                Cyber Security Division has put into action programs that promote cyber
                security awareness among the public and private sectors; improve vendor
                software development and reduce vulnerabilities; develop and promote sound
                practices and standards that enhance cyber security; promote a global culture
                of security through international outreach awareness; promote and facilitate the
                development of adequately trained information technology professionals; and
                plan, coordinate, and conduct cyber exercises with the public and private
                sectors to improve cyber security readiness, protection, and incident response
                capabilities. The National Cyber Security Division has established working
                groups and participated with public and private sector organizations to share
                information and protect cyberspace and cyber assets.

                While the National Cyber Security Division has made progress in meeting its
                mission, it can improve its efforts to secure the nation’s cyber infrastructure.
                Specifically, the division has not (1) established priorities to ensure that its
                mission-critical tasks supporting its programs are completed timely;
                (2) developed enhanced performance measures that can be used to evaluate the
                effectiveness in meeting its mission; (3) fully developed its information
                sharing and communications programs with the private sector; (4) developed
                and implemented enhanced procedures to ensure that all known cyber incidents
                from across the federal government are being reported; and (5) ensured that its
                support systems comply with all Federal Information Security Management
                Act requirements, including testing of contingency plans.

                We are making 14 recommendations to the Assistant Secretary for Cyber
                Security and Communications (CS&C). CS&C has already begun to take
                actions to implement 13 of the recommendations. CS&C’s response is
                summarized and evaluated in the body of this report and included, in its
                entirety, as Appendix B.
                Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                            Page 1
Background
                        The Department of Homeland Security (DHS) established the National Cyber
                        Security Division (NCSD) in June 2003 to serve as a national focal point for
                        addressing cyber security issues and to coordinate implementation of the
                        cyber security strategy in the United States. NCSD’s mission is to work
                        collaboratively with public, private, and international entities to secure
                        cyberspace and cyber assets, and to implement the actions and
                        recommendations of The National Strategy to Secure Cyberspace.1

                        In September 2006, the first Assistant Secretary for Cyber Security and
                        Telecommunications (CS&T) was appointed within the Preparedness
                        Directorate, which includes NCSD.2 NCSD reports to the Assistant Secretary
                        and is headed by the Office of the Director and comprises four branches:
                        United States Computer Emergency Readiness Team (US-CERT) Operations,
                        Law Enforcement and Intelligence, Outreach and Awareness, and Strategic
                        Initiatives. In October 2006, a new NCSD Acting Director was named and
                        who later became the Director in January 2007. As of December 2006, NCSD
                        had a staff of 107 (31 federal employees, 4 detailees, and 72 contractors). See
                        Figure 1 for an organization chart and Appendix C for the major functions and
                        responsibilities of each branch.

                        Figure 1 – NCSD Organization Chart




1
 The White House issued The National Strategy to Secure Cyberspace in February 2003.
2
 On March 31, 2007, CS&T was renamed Office of Cyber Security and Communications and the Preparedness
Directorate was renamed the National Protection and Programs Directorate.

                          Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                                      Page 2
                            US-CERT is the operational arm of NCSD and is charged with protecting the
                            nation's Internet infrastructure by coordinating defense against and response to
                            cyber attacks. In addition, US-CERT is responsible for analyzing and
                            reducing cyber threats and vulnerabilities, disseminating cyber trend and
                            analysis information, and coordinating incident response activities. US-CERT
                            interacts with federal agencies, the information technology (IT) industry, the
                            research community, state and local governments, and others to disseminate
                            reasoned and actionable cyber security information to the public.

                            NCSD has worked collaboratively with the private and public sector partners
                            to develop the IT Sector-Specific Plan. The final draft of this document was
                            completed in December 2006. The IT Sector-Specific Plan provides a
                            foundation for sector planning activities to manage risk and to improve
                            situational awareness, response, recovery, and reconstitution of the nation’s IT
                            infrastructure. These improvements, which can be accomplished through the
                            public and private sectors, will enhance national capabilities. The IT
                            Sector-Specific Plan identifies near-term (less than 1 year) and long-term
                            (1 to 3 years) actions that require collaborative efforts between and among the
                            private sector, state and local governments, non-governmental organizations,
                            and the federal government.

                            CS&T produced a strategy report, in December 2006, for the DHS Secretary
                            that provides a comprehensive overview of its organization. The report lists
                            stakeholders’ expectations, CS&T’s capabilities, current initiatives, gaps
                            between stakeholder expectations and the organization’s capabilities and
                            programs, strategic priorities, and actions to support the mission over the next
                            2 years.

                            In July 2004, we reported that NCSD had begun to implement the actions and
                            recommendations detailed in The National Strategy to Secure Cyberspace.3
                            We noted that NCSD faced a number of challenges to address long-term cyber
                            threats and vulnerabilities to the nation’s critical infrastructure. Specifically,
                            we found that NCSD had not:
                                •   Prioritized its initiatives to address the recommendations in The
                                    National Strategy to Secure Cyberspace.
                                •   Identified the resources needed to ensure that it could identify,
                                    analyze, and reduce long-term cyber threats and vulnerabilities.
                                •   Developed strategic implementation plans, including performance
                                    measures and milestones, focusing on the division’s priorities,
                                    initiatives, and tasks.


3
    Progress and Challenges in Securing the Nation’s Cyberspace (OIG-04-29, July 2004).

                              Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                                          Page 3
                     •   Instituted a formal communications process within DHS, as well as the
                         public, private, and international sectors.
                     •   Initiated and implemented a process to oversee and coordinate efforts
                         to develop best practices and create cyber security policies with other
                         government agencies and the private sector.

               NCSD has taken corrective actions to develop strategic implementation plans,
               institute a formal communications process, and oversee and coordinate efforts
               to develop best practices and security policies. However, other
               recommendations remain open and are addressed in this report.


Results of Audit
     Progress Made In Securing Cyberspace

               NCSD has made progress in its cyberspace security efforts. Specifically,
               NCSD established a fully operational, incident-handling center (US-CERT) to
               facilitate information sharing across all infrastructure sectors and to help
               protect and maintain the continuity of the nation’s cyber infrastructure. In
               addition, NCSD has established working groups and participated with public
               and private sector organizations to share information and protect cyberspace
               and cyber assets.

               NCSD also has put into action programs to address the recommendations in
               The National Strategy to Secure Cyberspace. For example:
                     •   The Outreach and Awareness program was established to promote
                         cyber security awareness among and within the public and private
                         sectors, maintain relationships with governmental cyber security
                         professionals to coordinate and share information about cyber security
                         initiatives, and develop partnerships to promote coordination and
                         collaboration on cyber security activities.
                     •   The Software Assurance program seeks to reduce software
                         vulnerabilities, minimize exploitation, and address ways to improve
                         capabilities to develop and deploy trustworthy software products.
                     •   The Standards and Best Practices program promotes and sponsors the
                         development of standards, guidance documents, metrics, and tools that
                         raise awareness and encourage the implementation of cyber security
                         practices and processes.
                     •   The International Affairs program was established for NCSD to
                         engage in international outreach activities to build awareness about the
                         global cyber risk, share information about the role and activities of
                   Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                               Page 4
                  computer security incident response teams, and build relationships
                  among governments toward global cooperation on cyber security.
              •   The Training and Education program promotes and facilitates the
                  development of adequately trained information technology
                  professionals to support the Nation’s cyber security needs via effective
                  training, education, and certification programs.
              •   The Cyber Exercise program plans, coordinates, and conducts cyber
                  exercises with the public and private sectors as a mechanism for
                  NCSD to improve cyber security readiness, protection, and incident
                  response capabilities.

           The implementation of these programs helps NCSD fulfill its mission to
           partner with the public and private sectors to prevent, minimize, prepare for,
           and respond to threats to critical IT infrastructure. However, as discussed in
           the following sections, improvements are needed in NCSD’s efforts to
           implement The National Strategy to Secure Cyberspace.

Better Management of Strategic Plan Is Needed
           NCSD has not effectively managed its strategic plan to ensure that critical
           tasks are completed timely. Specifically, NCSD has not prioritized key
           activities for the division or established effective performance measures to
           monitor the division’s progress in accomplishing its mission and goals. In
           addition, NCSD needs to improve its incident reporting analysis in order to
           identify and reduce underreporting by federal agencies. Until NCSD
           implements its critical strategic initiatives, including the reporting of all cyber
           incidents and monitoring its progress with effective performance measures,
           the division cannot ensure that it can partner successfully with the public and
           private sector to prevent, minimize, prepare for, and respond to threats to
           critical IT infrastructure.

           Establish Priorities to Ensure Critical Tasks Are Completed

           NCSD has undertaken steps to address the recommendations proposed in The
           National Strategy to Secure Cyberspace. However, in addressing the
           recommendations, NCSD has not prioritized specific initiatives, taking into
           consideration the required resources to ensure the timely completion of its
           initiatives. As a result, many of NCSD’s initiatives are not complete and the
           progress to date has been limited.

           While NCSD has begun many initiatives to address the recommendations
           proposed in The National Strategy to Secure Cyberspace, many of its efforts
           lacked specific timeframes for completion. NCSD personnel said that each of

            Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                        Page 5
the actions outlined in the division’s draft Strategic Plan, dated May 2006, and
all of the program plans developed by its branches that support it, are a
“priority.” We determined that these actions had not been prioritized based on
NCSD management goals or available resources.

Certain critical programs that were established to implement recommendations
from The National Strategy to Secure Cyberspace will not be completed for
another 2 or more years. For example, the Control Systems Security Program,
the goal of which is to guide a cohesive effort between government and industry
and reduce the risk to critical infrastructure control systems, is not expected to
complete its roll out until FY 2009. Additionally, the computer forensics
laboratory, that will train government security personnel to become
specialized in multiple forensic areas, is not expected to be fully operational
until FY 2009, but will begin initial training in the fall of 2007.

In addition, some members of the National Cyber Response Coordination
Group, the IT-Information Sharing and Analysis Center, and the IT-Sector
Coordinating Council expressed their concerns that NCSD has too many
priorities for the available resources provided to the division. Some group
members also expressed concerns that NCSD was not working on initiatives
that are currently needed. For example, members cited the need for smaller
cyber exercises in addition to the larger scaled one previously held or the
creation of operational recovery plans in the event of a major cyber incident.
Group members believed that these concerns became more critical with the
issuance in December 2006 of the IT-Sector Specific Plan. This plan listed
over 70 short and long-term actions, many needing NCSD assistance, which
need to be completed within the next 3 years. In addition, the CS&T Strategy
report, issued in December 2006, identified strategic priorities and actions that
are to be accomplished within the next 2 years. Taken in total, the number of
existing and new actions required of NCSD is significant and could
overextend the capabilities of the division if not prioritized and properly
resourced.

NCSD Needs to Improve the Monitoring of Its Milestones

NCSD’s monitoring of its program initiatives needs improvement. NCSD has
not established a process to monitor and manage effectively the division’s
current milestones and deliverables. As a result, it is difficult for management
to monitor efforts of the division in completing its initiatives and determining
whether they are on schedule, ahead of schedule, or behind schedule.

NCSD has not consolidated tracking all of the division’s milestones and
deliverables. NCSD produced a draft Strategic Plan in May 2006, which
details its actions and milestones to accomplish the division’s goals. To

 Challenges Remain in Securing the Nation’s Cyber Infrastructure

                             Page 6
    support the Strategic Plan, NCSD staff developed ten program plans that
    include milestones for major deliverables and actions. Program plans list the
    overview of the program, goals, milestones, performance measures, resources,
    and challenges. In addition, NCSD management uses quarterly Program
    Assessment Rating Tool (PART) reports to track milestones that have been
    completed during the quarter. PART is a diagnostic tool that the Office of
    Management and Budget (OMB) uses to assess the performance of programs
    and to drive improvement in program performance. OMB defines three
    categories of performance measures: (1) outcome-the intended result of
    carrying out a program or activity (value added), (2) output-the level of
    activity that will be provided over a period of time, and (3) efficiency-the ratio
    of the outcome or output to the input of any program. The PART report only
    identifies tasks or milestones that have been met. It does not identify or
    explain delays.

    The Strategic Plan and the individual program plans do not associate resource
    requirements to the achievement of deliverables and milestones. In addition,
    four of the ten program plans reviewed did not contain information as to
    interim milestones. For example, some milestones were listed as “ongoing,”
    “FY 2007,” “FY06-FY10,” or “FY06-FY10 Planned.” These types of
    milestones do not allow NCSD management to monitor effectively the
    incremental progress of its initiatives and evaluate whether the program goals
    have been achieved. Interim milestone dates are often needed to manage
    incremental progress for activities that can take years to complete in their
    entirety. We also found instances where some milestones were reported in the
    program plans as complete, but were not reported on the PART report.

    The sophistication and effectiveness of cyber attacks have steadily advanced
    in recent years. Therefore, to improve its ability to address these threats, it is
    imperative that NCSD prioritize its initiatives based upon available resources
    and criticality as determined by management. Without establishing priorities,
    NCSD cannot ensure that critical initiatives and milestones are accomplished
    on schedule and in a timely manner. Improving the monitoring of its
    milestones will allow NCSD the ability to better guide and track the division’s
    activities in implementing the recommendations outlined in The National
    Strategy to Secure Cyberspace.

Recommendations
    We recommend that the Assistant Secretary for CS&C direct the NCSD
    Director to:

    Recommendation #1: Establish priorities and milestones (short term and long
    term) for critical tasks using input from the CS&T Strategy Summary report,

      Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                  Page 7
     IT-Sector Specific Plan, and The National Strategy to Secure Cyberspace.
     Milestones should be based on available funding and resources.

     Recommendation #2: Consolidate the tracking of all current and future
     initiatives and milestones, and review at least quarterly.

Management Comments and OIG Analysis
     CS&C concurred with recommendation 1. CS&C plans to address its
     strategic priorities through short and long term actions over the course of the
     next 2 years and beyond. NCSD’s implementation plan and detailed program
     plans, which are mapped to CS&C’s priorities, contain its goals and priorities.
     To improve performance management within its new organizational structure,
     CS&C is in the process of defining additional performance measures and
     milestones that tie into NCSD’s mission, priorities, processes, and available
     resources. In addition, CS&C has scheduled its first quarterly review to
     evaluate NCSD’s progress in terms of priorities developed by the Assistant
     Secretary for CS&C, current funding, and anticipated funding for
     Fiscal Year 2008.

     We agree that the steps that CS&C has taken, and plans to take, satisfy this
     recommendation.

     CS&C did not concur with the finding that resulted in recommendation 2. In
     disagreeing with the finding that NCSD needs to improve the monitoring of its
     milestones, CS&C indicated that NCSD monitors its milestones and
     performance based upon its strategic plan and updates its program plans each
     quarter. In addressing our recommendation, NCSD is revising its strategic
     plan with a comprehensive implementation plan and updated program plans to
     track actions, milestones, and resources. NCSD will report quarterly to CS&C
     on accomplishments and deliverables mapped to programmatic actions,
     milestones and resource allocations, identifying anticipated potential shortfalls
     and remedial actions.

     We believe that the steps that NCSD has taken, and plans to take, satisfy this
     recommendation to consolidate the tracking of all current and future initiatives
     and milestones and review them quarterly.

     Better Defined Performance Measures Are Needed

     NCSD has not developed effective performance measures needed to monitor
     the division’s success in accomplishing its mission and goals. Without such
     measures, NCSD will have difficulty in determining how effective its


      Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                  Page 8
initiatives are in achieving significant results in strengthening the nation’s
cyber security.

Performance measures are the indicators or metrics that are used to gauge
program performance. Furthermore, performance measures should address
the direct products and services delivered by a program (outputs), and the
results of those products and services (outcomes). Outcomes are important, as
they often describe the intended result or consequence that will occur from
carrying out a program or activity. For example, an outcome goal might be to
reduce the time it takes to disseminate cyber threat warning by FY 2008.
Therefore, outcomes are of direct importance to beneficiaries and the public.
While performance measures must distinguish between outcomes and outputs,
there must be a reasonable connection between them, with outputs supporting
(i.e., leading to) outcomes in a logical fashion.

NCSD has developed performance measures based on OMB’s PART metrics:
output, outcome, and efficiency. NCSD branches report to OMB the status of
their metrics on a quarterly basis. To monitor branch progress, NCSD
identified three performance measures:
   •   Number of cyber security products delivered to key stakeholders
       (output).
   •   Percent of targeted stakeholders who participate in or obtain cyber
       security products and services (outcome).
   •   Percent of completion of key milestones and accomplishments
       (efficiency).

We determined that NCSD has not developed sufficient outcome performance
measures to ensure that its programs are achieving the intended results and
impact, i.e., secure cyberspace and reduce security vulnerabilities. For
instance, NCSD developed performance measures that emphasize “quantity”
(number of newsletters issued, number of people attending conferences or
workshops), but has not developed measures to evaluate the “quality” of its
products and services. For example, outcomes that measure the effect
newsletters or conferences have on the cyber community, the number of
vulnerabilities reduced, or the usefulness of the information or service to the
public have not been established.

In addition, since one of NCSD’s performance measures is the percent of
completion of key milestones, it is important that target completion dates be
established for all milestones and deliverables in order to monitor the
performance and progress of the branches. For example, some of the
milestones in the individual program plans were listed as “ongoing” or
“FY06-FY10.” Additionally, one of the goals of the Outreach and Awareness

 Challenges Remain in Securing the Nation’s Cyber Infrastructure

                             Page 9
     branch is to maintain relationships with governmental cyber security
     professionals in order to share information about cyber security initiatives,
     and develop partnerships to promote collaboration on cyber security
     preparedness issues. Performance measures and milestones that would
     evaluate its success have not been developed.

     According to OMB guidance, performance measures are developed to monitor
     a program’s accomplishments and determine whether results are being
     achieved. Establishing performance measures also keeps program partners
     focused on the key goals of a particular initiative. Performance measures
     must reflect a program’s mission and priorities, be few in number, and should
     reflect direct outcomes. In some cases where the outcome of a program may
     not be realized for many years, a program should define specific short- and
     medium-term steps or milestones to accomplish the long-term outcome
     performance goals. Appropriate performance goals should include
     performance measures and targets, outcomes, and annual and long-term
     measures and targets.

Recommendation
     We recommend that the Assistant Secretary for CS&C direct the NCSD
     Director to:

     Recommendation #3: Develop additional performance measures for each
     branch that can be used to review and periodically evaluate the outcome or
     success of the division’s programs.

Management Comments and OIG Analysis
     CS&C did not concur with the finding that resulted in recommendation 3. In
     disagreeing with the finding that better defined performance measures are
     needed, CS&C indicated that NCSD developed and began collecting internal
     program level measures to improve the ability to assess overall programmatic
     progress in the third quarter of Fiscal Year 2006. In addressing our
     recommendation, NCSD recently developed revised PART measures to cover
     all of its programs. NCSD is regularly evaluating its metrics and strives to
     improve them.

     We believe that the steps that NCSD has taken, and plans to take, satisfy this
     recommendation to develop additional performance measures.




      Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                 Page 10
                          Expanded Incident Reporting Analysis Will Improve Identification and
                          Response to Cyber Incidents

                          US-CERT is not performing detailed analysis to ensure that all incidents are
                          being received from all federal agencies.4 Less than complete reporting
                          hampers the government’s ability to know whether an incident is isolated at
                          one agency or is part of a larger event (widespread propagation of an Internet
                          worm) and thus complicates and delays appropriate response, such as
                          distributing security patches or other compensating controls.

                          Security incidents are reported to US-CERT either through OMB-mandated
                          incident reports from federal agencies or incident reports submitted
                          voluntarily by state, local, and tribal governments, as well as private sector
                          organizations. In addition, US-CERT monitors real-time network traffic from
                          selected Internet access points to detect suspicious activities for those federal
                          agencies that are participating in the Einstein program. The Einstein program
                          is an initiative that builds cyber-related situational awareness across the
                          participating federal agencies. Specifically, the Einstein program employs an
                          automated tool to monitor government agencies’ network traffic to facilitate
                          the identification and response to cyber threats and attacks, improve network
                          security, increase the resiliency of critical electronically delivered government
                          services, and enhance the survivability of the Internet. The Einstein program
                          helps agencies identify baseline network traffic patterns, configuration
                          problems, unauthorized network traffic, network backdoors, routing
                          anomalies, and network scanning activities.

                          Federal agencies are required to follow US-CERT’s Concept of Operations for
                          Federal Cyber Security Incident Handling when analyzing and reporting
                          security incidents. US-CERT leveraged National Institute of Standards and
                          Technology (NIST) guidance to identify incident and event categories and
                          reporting timeframes for federal civilian agencies when submitting security
                          incidents to US-CERT (see Appendix D).

                          In OMB’s 2004 and 2005 reports to Congress, the accuracy, timeliness, and
                          completeness of incident reporting was identified as a concern.5 In addition,
                          OMB cited that the number of incidents reported indicated sporadic reporting
                          by some agencies and unusually low levels of reported malicious activity at
                          other agencies.

4
  An incident is a violation or imminent threat of violation of computer security policies, acceptable use policies, or
standard computer security practices. Examples of the incidents are (1) denial of service attacks, (2) malicious codes,
(3) unauthorized access, and (4) improper usage.
5
  Federal Information Security Management Act (FISMA) 2004 Report to Congress, dated March 1, 2005, and FY 2005
Report to Congress on Implementation of The Federal Information Security Management Act of 2002, dated
March 1, 2006.

                            Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                                        Page 11
                            Security incidents reported by federal agencies are analyzed for emerging
                            threats and ranked by severity. US-CERT does not determine whether all
                            security incidents and events are being reported by all federal agencies.
                            Furthermore, US-CERT has not developed a process to use potential cyber
                            incidents identified by Einstein along with other analyses to identify possible
                            incident underreporting.

                            We obtained a summary report prepared by US-CERT for the period of
                            October 1, 2004, to September 30, 2006. The number of incidents reported to
                            US-CERT by federal agencies has increased each of the last 2 years
                            (FY 2005: 3,631; FY 2006: 5,237). See Figure 2 below for the number of
                            incidents and events reported during this period.

                            Figure 2-Total Incidents and Events by Month




                            There is a wide variation in the number of incidents and events reported to
                            US-CERT by federal agencies of comparable size. For example, over the
                            2-year period, one agency with more than 56,000 employees reported 726
                            incidents, whereas another comparable agency with more than 67,000
                            employees reported only 17 incidents. In an effort to address this problem,
                            OMB reported to Congress in FY 2005 that DHS had begun deploying
                            Einstein’s automated tool to monitor network traffic at three agencies and had
                            funding to install it at an additional six agencies.6 OMB further reported that
                            the use of this and similar tools should considerably improve the
                            government’s ability to identify and respond to potential incidents in a timely
                            manner. While DHS is the lead federal agency in securing the nation’s
                            cyberspace, it is not one of the federal agencies using Einstein department-
                            wide to monitor its network traffic.

6
    As of December 2006, eight agencies were participating in the Einstein program.

                              Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                                          Page 12
     As a service to federal agencies, US-CERT summarizes all security incidents
     and events, and issues a high-level snapshot report (quarterly and annually) to
     the White House and federal agencies. According to US-CERT personnel,
     these reports can be used by agencies to compare their individual security
     incidents and events with those reported by other agencies.

     NCSD management said that while the Federal Information Security
     Management Act (FISMA) requires federal agencies to report all incidents to
     US-CERT, NCSD has not been given the authority to enforce individual
     agency reporting. To rectify sporadic incident reporting by federal agencies,
     NCSD staff have discussed the issue with OMB. NCSD has also met with the
     Chief Information Officers Council to make them aware of the need and
     benefits of reporting all incidents to US-CERT and have performed outreach
     to agencies that are reporting few if any incidents. NCSD management said
     that the annual FISMA reviews performed by the agency Inspectors General
     are used to identify and report instances of underreporting.

     An effective incident response capability is critical to a government-wide
     security program as well as individual agency programs. In order for
     US-CERT to successfully perform its duties, it must have an accurate
     depiction of incidents across all agency bureaus and operating divisions.
     Additionally, incident reports can provide Chief Information Officers and
     other agency senior managers with valuable input for risk assessments, help
     prioritize security improvements, and illustrate risk and related trends.

Recommendations
     We recommend that the Assistant Secretary for CS&C direct the NCSD
     Director to:

     Recommendation #4: Develop and implement procedures to review and
     analyze agencies’ incidents submissions to identify underreporting of
     incidents by federal agencies.

     Recommendation #5: Work with OMB and federal agencies to eliminate
     underreporting of cyber security incidents to US-CERT and complete the
     deployment of Einstein to all federal agencies.

Management Comments and OIG Analysis
     CS&C did not concur with recommendation 4. While NCSD continues to
     work collaboratively with OMB and federal agencies to encourage more
     robust reporting, compliance with FISMA regulations and underreporting
     issues fall outside the scope and authority of US-CERT.

      Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                 Page 13
          While we agree that OMB is responsible for directing federal agencies to
          report all cyber incidents to US-CERT under FISMA guidance, we believe
          that NCSD, as the lead in securing cyberspace for the federal government,
          should develop and implement procedures to identify underreporting of
          incidents. The identification of underreporting would be based on analysis
          and situational monitoring currently being performed by US-CERT. The
          procedures we are recommending could be used in conjunction with
          recommendation 5 (eliminating underreporting of cyber security incidents),
          which CS&C agreed to implement.

          CS&C concurred with recommendation 5. NCSD continues to work
          collaboratively with OMB and federal agencies to encourage more robust
          reporting but does not have the authority to mandate reporting. NCSD is
          working to expand the Einstein program to additional federal agencies. The
          program is planning an aggressive rollout of additional Einstein installations
          by the end of Fiscal Year 2008.

          We agree that the steps that CS&C has taken, and plans to take, satisfy this
          recommendation.

     Recommendation
          We recommend that the DHS Chief Information Officer:

          Recommendation #6: Participate in the Einstein program in order to detect
          and identify potential security incidents.

     Management Comments and OIG Analysis
          CS&C concurred with recommendation 6. NCSD is working closely with the
          Office of the Chief Information Officer to deploy Einstein across the
          department. A memorandum of agreement has been drafted between the
          parties and they will continue to collaborate.

          We agree that the steps that management has taken, and plans to take, satisfy
          this recommendation.

Improved Information Sharing and Communications Will Enhance Cyber
Infrastructure Security
          NCSD needs to improve its information sharing and communications
          programs with its private sector partners. Some private sector partners
          expressed concern over the focus and clarity of NCSD’s communications.
           Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                      Page 14
Concern was also expressed with the sharing of classified information with
the private sector. Without the public and private sectors working together in
identifying and sharing critical cyber information, there is little assurance that
all critical data is made available to key personnel in order to prevent or
recover from a major cyber incident.

Communications with Private Sector

NCSD interacts with the IT sector (comprised of the producers and providers
of hardware, software, and IT services) through working groups and incident
response organizations. NCSD also collaborates with groups from the public
and private sectors to facilitate the collection and sharing of computer security
information and incidents.

While members of the groups interviewed said that there have been
improvements at NCSD in the past year, including the sharing of threats and
vulnerabilities and better interaction with NCSD staff, many in the private
sector remain resistant to sharing information with the federal government.
Group members expressed concern with the number of NCSD’s ongoing
priorities (noted in our previous finding), communications with the private
sector, and the sharing of information.

NCSD helped to create the National Cyber Response Coordination Group, the
principal interagency forum to coordinate intra-governmental and
public/private preparedness efforts to respond to and recover from large-scale
cyber attacks. NCSD established the Government Forum of Incident
Response and Security Teams, a group of technical and tactical practitioners
of security response teams responsible for securing government information
technology systems. NCSD also interacts with the IT-Sector Coordinating
Council and the IT-Information Sharing and Analysis Center. The
IT-Information Sharing and Analysis Center is recognized by DHS as the
information sharing organization for private industry within the IT sector.

Some of the IT information sharing organization members expressed concern
that NCSD is not focusing its communications program toward the right
people. While there has been an extensive amount of outreach and
communications with the public and private sector cyber stakeholders, some
members believe that there is a lack of communications by NCSD with senior
executives at key IT sector companies. The members believe that NCSD
senior management should meet with the executives individually to convince
them of the value of cyber security improvements and collaboration with the
federal government.




 Challenges Remain in Securing the Nation’s Cyber Infrastructure

                            Page 15
Members in the private sector also had concerns when receiving information
requests from NCSD. At times, it was unclear what specific information DHS
wanted, why the information was needed, what NCSD would do with it, and
how the information would be protected. Per group members, there remains a
hesitancy to share information by the private sector due to a lack of trust of
the government.

Communications with the private sector is a challenge for NCSD. NCSD’s
message to the private sector concerning the need for stronger cyber security
and information sharing must be communicated to many people at different
levels within organizations who are responsible for securing their own portion
of cyberspace. Without the support of senior management in the private
sector, there is little assurance that employees at these companies will
implement the security improvements needed to secure their cyber assets.
Further, without a clear understanding by the private sector of how
information is used and secured, there is little assurance that NCSD will
obtain the necessary information needed to protect the cyber infrastructure.

Sharing of Classified and Sensitive Information

Some private sector partners also expressed concern over sharing of classified
information. Specifically, incident and vulnerability information that the
private sector believes that they need to secure their own cyber assets is
deemed classified, and thus prevents the sharing of critical information. In
addition, some members of the private sector said that they are not provided
with clear guidance on how sensitive (For Official Use Only [FOUO]) or
classified information that they do receive can be shared with other people
within their organizations.

US-CERT personnel said that classified information is received from many
sources including the intelligence community, Department of Defense, and
law enforcement agencies. US-CERT personnel will send an
unclassified/FOUO version only to those organizations or individuals that
they believe need the information.

The originating organization of classified information is responsible for
determining the classification of the documents being sent to US-CERT. Per
US-CERT personnel, the originator is to include an unclassified portion or
version so that the critical information can be distributed to the appropriate
organizations. At times, US-CERT personnel must request the unclassified
version from the originator if it was not sent originally. In addition,
US-CERT must ask the originator of the information for their approval before
sending the information out to the recipients.


 Challenges Remain in Securing the Nation’s Cyber Infrastructure

                            Page 16
    According to NCSD, US-CERT’s capability to disseminate unclassified
    information to its public and private sector constituents continues to evolve as
    NCSD works more closely with the originating organizations to improve the
    process. In many cases, the originator of the classified information will not
    allow NCSD to share unclassified versions of the information with the private
    sector. The marking of unclassified documents as FOUO limits NCSD’s
    ability to share information with the private sector.

    In an attempt to keep the private sector informed on cyber matters, NCSD
    staff has held meetings with several Information Sharing and Analysis
    Centers, participated in daily IT-Information Sharing and Analysis Center
    Operations Center conference calls, and are available for individual inquiries
    concerning the sharing of classified or sensitive information. NCSD has also
    discussed classified information with cleared private sector individuals.

    Homeland Security Presidential Directive 7 requires DHS and federal
    agencies to collaborate with the private sector to facilitate sharing of
    information about physical and cyber threats, vulnerabilities, incidents,
    potential protective measures, and best practices. The National Strategy to
    Secure Cyberspace also calls for the removal of impediments to information
    sharing between the public and private sectors.

    It is essential that people and organizations receive and are able to share
    critical information in order to take the appropriate steps to reduce the effects
    of a cyber incident. In its December 2006 Strategy report, CS&T
    acknowledged that information sharing, including the sharing of classified
    information, is a gap between stakeholder expectations and DHS’ capabilities
    and programs.

Recommendations
    We recommend that the Assistant Secretary for CS&C direct the NCSD
    Director to:

    Recommendation #7: Develop clearer communications with key personnel
    and organizations in the private sector to explain the processes being used to
    capture, share, use, and secure cyber information.

    Recommendation #8: Expand its communications program with a focus on
    key private sector executives to encourage corporations to more actively
    participate in the information sharing program and to better secure its systems.

    Recommendation #9: Develop and implement formal procedures for
    receiving, reviewing, and distributing sensitive and classified information.

      Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                 Page 17
     The procedures should include the types of information that can be shared,
     and the timing of receiving an unclassified (or reduced level) and redacted
     version or portion of the information that can be shared with cyber partners in
     the private sector. These procedures should be reviewed and agreed to by all
     organizations providing sensitive and classified information.

Management Comments and OIG Analysis
     CS&C concurred with recommendation 7. NCSD will continue to build and
     maintain strong working relationships with the IT sector. In October 2006,
     US-CERT, in collaboration with the IT-Information Sharing and Analysis
     Center, developed a draft Concept of Operations for private industry cyber
     security incident handling that addresses information sharing, communication,
     and coordination with the private sector, including how the public and private
     sectors will work together and how information will be shared. In addition,
     the NCSD Internet Disruption Working Group completed a draft of the
     information sharing assessment in January 2007 and findings will be briefed
     to the Internet community at the next Internet Disruption Working Group
     forum. CS&C will continue to enhance analysis and information aggregation
     functions to provide timely and actionable dissemination of information.

     We agree that the steps that CS&C has taken, and plans to take, satisfy this
     recommendation.

     CS&C concurred with recommendation 8. CS&C agreed that more can and
     should be done to expand communications to key private sector stakeholders.
     The Assistant Secretary for CS&C created a permanent External Affairs
     position within the CS&C front office working closely with NCSD to engage
     with private sector executives in a variety of forums. Recent activities include
     meetings with key private sector representatives and major industry groups.

     We agree that the steps that CS&C has taken, and plans to take, satisfy this
     recommendation.

     CS&C concurred with recommendation 9. CS&C agreed that more should be
     done to improve information sharing with public and private sector
     organizations. US-CERT is working with its intelligence community partners
     to develop procedures for sharing of information between organizations. In
     addition, NCSD and its partners have shared classified information with
     cleared private sector stakeholders and continue to make every effort to
     develop unclassified versions of key documents to ensure broad dissemination
     of actionable information.



      Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                 Page 18
                           We agree that the steps that CS&C has taken, and plans to take, begin to
                           satisfy this recommendation.

         Revised Certification and Accreditation Will Satisfy FISMA Requirements
                           NCSD’s certification and accreditation documentation requires updating in
                           order to satisfy FISMA requirements. We noted deficiencies with the security
                           artifacts7 contained in the accreditation packages for two NCSD systems,
                           Einstein and Cybercop Portal, which were authorized to operate in FY 2006.8
                           Lacking key information, agency officials cannot make credible risk-based
                           decisions on whether to authorize systems to operate or ensure that systems
                           are adequately secure. Both systems were authorized to operate for 1 year;
                           therefore they are scheduled to be recertified and accredited in 2007.

                           NCSD has implemented adequate security controls over the systems reviewed.
                           However, some security documents were missing key information that is
                           required to meet applicable OMB, NIST, and DHS guidelines.9

                           Einstein Documentation

                           NCSD uses data captured from its Einstein system sensors to analyze
                           suspicious network traffic from across the federal government network
                           infrastructure. A number of improvements are needed in the system
                           documentation. Specifically:
                               •    The system security plan does not identify each of the systems that are
                                    connected to Einstein or contain an accurate description of the
                                    hardware installed. Agency officials require this detailed information
                                    in order to make credible, risk-based decisions on whether adequate
                                    controls have been implemented and to determine whether to authorize
                                    the system to operate.



7
  DHS requires 11 artifacts be developed during the certification and accreditation process. The 11 artifacts are:
Authority To Operate letter, system security plan, risk assessment, security test and evaluation, security assessment
report, contingency plan, contingency plan test results, e-authentication determination, Federal Information Processing
Standards Publication 199 determination, privacy threshold analysis, and annual self assessment.
8
  The Cybercop Portal is a secure Internet-based information sharing mechanism for more than 8,700 law enforcement
members involved in the field of electronic crimes investigations. The law enforcement community, including
investigators from private industry, e.g., banks and the network security community, is tied together and supported by
this secure, Internet-based, collaboration portal. Members represent all 50 states, effectively all government agencies,
and more than 40 countries.
9
  According to OMB policy, certification and accreditation requires documentation of security planning, including risk
assessments, contingency plans, incident response plans, security awareness and training plans, information systems
rules of behavior, configuration management plans, security configuration checklists, privacy impact assessments, and
system interconnection agreements.

                             Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                                         Page 19
   •   Einstein’s contingency plan does not address backup and recovery
       procedures necessary to restore operations in the event of an
       emergency or system failure.
   •   NCSD has not tested the contingency plan to ensure that business and
       computer operations can be maintained or restored, possibly at an
       alternate location, in the event of an emergency, system failure, or
       disaster.
   •   The risk assessment does not evaluate the likelihood of vulnerabilities
       identified that may be exploited or the potential impact and magnitude
       of harm to the system by exploiting the vulnerabilities identified.
   •   Physical controls implemented at the contractor's location were not
       evaluated when completing the NIST 800-26 self-assessment to ensure
       that physical access to computer resources is restricted to authorized
       personnel.

Cybercop Portal Documentation

NCSD supports the Cybercop Portal, which is used by law enforcement
entities at all levels of government to communicate and share information. A
number of improvements are needed in the system’s security documentation.
Specifically:
   •   The risk assessment does not stipulate the use of security testing to
       identify vulnerabilities or analyze the effectiveness of controls
       implemented.
   •   The system test and evaluation plan does not include procedures to
       assess the effectiveness of controls implemented.
   •   NCSD has not performed annual security testing to evaluate the
       system controls implemented.
   •   The contingency plan has not been tested to determine whether
       specific aspects of the plan such as the data backup and recovery
       procedures remain valid.
   •   Security awareness training was not provided to contractors who are
       responsible for maintaining the system.

Vulnerability Assessments of Einstein and Cybercop Portal

Overall, NCSD has implemented adequate security controls over each of the
two systems reviewed. To assess system security, we (1) interviewed
information technology personnel responsible for Einstein and Cybercop
Portal; (2) performed vulnerability scans at NCSD headquarters, contractor

 Challenges Remain in Securing the Nation’s Cyber Infrastructure

                            Page 20
    sites, and the Einstein collection systems at one federal agency; (3) manually
    reviewed selected routers, switches, and firewalls for Einstein system; and,
    (4) performed vulnerability scans on selected servers and firewalls, and
    password analysis for the Cybercop Portal. Our testing did not include an
    assessment of the Cybercop Portal application software.

    No high-risk vulnerabilities were detected on the Cybercop Portal devices
    tested. We found only two medium-security vulnerabilities on the Einstein
    system. When devices are not properly configured, the vulnerabilities could
    be exploited to gain inappropriate access to sensitive information. Subsequent
    to the completion of our audit work, NCSD personnel indicated that
    appropriate actions have been taken to address the vulnerabilities. As
    fieldwork had already been completed, we did not verify whether the
    vulnerabilities had been addressed.

    FISMA requires federal agencies to provide adequate controls for the data and
    information systems under their controls by (1) periodically assessing the risk
    and magnitude of the harm that could result from the unauthorized access, use,
    disclosure, disruption, modification, or destruction; (2) performing annual
    security testing to evaluate the effectiveness of security controls implemented;
    (3) providing security awareness training to inform personnel, including
    contractors and other users; and (4) planning and developing procedures to
    ensure the continuity of operations for the systems and data that support the
    operations and assets of the agency.

    Contingency planning is designed to mitigate the risk of system and service
    unavailability by focusing effective and efficient recovery solutions. Testing
    of contingency plans is performed to validate specific aspects of the plan,
    policies, procedures, systems, and facilities that will be used in the event of an
    emergency. Testing the plan identifies planning gaps and is also a training
    exercise to prepare recovery personnel for plan activation, which can improve
    plan effectiveness and overall agency preparedness.

Recommendations
    We recommend that the Assistant Secretary for CS&C direct the NCSD
    Director to develop and implement procedures for all systems to:

    Recommendation #10: Ensure that certification and accreditation documents
    contain complete and accurate information to reflect the security postures of
    the system. In addition, security documents should be reviewed periodically
    and revised if necessary to ensure that agency officials are provided with the
    most accurate information to make credible, risk-based decisions on whether
    to authorize a system to operate.

      Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                 Page 21
     Recommendation #11: Test contingency plans, at least annually, to ensure
     business and computer operations can be maintained or restored in the event
     of an emergency, system failure, or disaster.

     Recommendation #12: Perform security testing annually to evaluate the
     effectiveness of controls implemented.

     Recommendation #13: Provide security awareness training to all contractors.

     Recommendation #14: Remedy all vulnerabilities identified for which risks
     have not been assumed.

Management Comments and OIG Analysis
     CS&C concurred with recommendation 10. NCSD has a dedicated full-time
     Information Systems Security Officer to ensure that US-CERT systems,
     including Einstein and Cybercop Portal, meet FISMA requirements and
     continue to maintain the proper authority to operate. Based on feedback from
     our review, US-CERT is in the process of updating documentation for the
     2007 Einstein and Cybercop Portal re-accreditations.

     We agree that the steps that CS&C plans to take satisfy this recommendation.

     CS&C concurred with recommendation 11. US-CERT has successfully
     implemented a backup system for Einstein. In March 2007, Einstein’s
     back-up system was successfully tested, with additional testing planned in
     upcoming months. Additionally, US-CERT has requested resources to build
     and maintain an alternate site location for the Einstein program. A Continuity
     of Operations Plan has been developed and is operational for the Cybercop
     Portal to include off-site backup capability.

     We agree that the steps that CS&C has taken, and plans to take, begin to
     satisfy this recommendation. However, CS&C did not specifically address
     whether it has or will test the Cybercop Portal’s off-site backup capability.
     We maintain that contingency plans should be tested for all systems, at least
     annually.

     CS&C concurred with recommendation 12. US-CERT performs security
     testing annually in compliance with DHS policy. US-CERT is currently
     submitting documentation and conducting testing so that an additional
     one-year authority to operate the Einstein system may be granted. For the
     Cybercop Portal, annual security testing is performed in accordance with
     standard certification and accreditation procedures. The administrator of the

      Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                 Page 22
Cybercop Portal conducts additional security testing to evaluate the
effectiveness of the controls implemented.

We agree that the steps that CS&C has taken, and plans to take, satisfy this
recommendation.

CS&C concurred with recommendation 13. NCSD provides and complies
with all security awareness training required by DHS for all staff, including
contractors. CS&C conducted its latest security awareness training for all its
components on April 25, 2007.

We agree that the steps that CS&C has taken satisfy this recommendation.

CS&C concurred with recommendation 14. NCSD and US-CERT have been
proactive in addressing identified vulnerabilities within Einstein and have
resolved the necessary items.

We agree that the steps that CS&C has taken begin to satisfy this
recommendation. However, while CS&C addressed the vulnerabilities we
identified during the audit, it did not specifically address whether it will
remedy all vulnerabilities identified for which risks have not been assumed as
a result of future security testing.




 Challenges Remain in Securing the Nation’s Cyber Infrastructure

                            Page 23
Appendix A
Purpose, Scope, and Methodology


Purpose, Scope, and Methodology
                   Our objective was to determine whether NCSD is working collaboratively
                   with the public, private, and international entities to secure cyberspace and
                   cyber assets and has effectively managed the implementation of The National
                   Strategy to Secure Cyberspace. Specifically, we determined whether:
                   (1) NCSD has adequately addressed the actions and recommendations in The
                   National Strategy to Secure Cyberspace; (2) implementation plans are
                   meeting NCSD’s strategic goals and priorities; (3) US-CERT is adequately
                   performing its mission; (4) partnerships and coordination with other
                   government agencies and the private sector are effective in securing
                   cyberspace and cyber assets; and, (5) operational systems are in compliance
                   with Federal Information Security Management Act requirements.

                   To accomplish our audit, we interviewed selected NCSD personnel and
                   contractors at its headquarters and contractor facilities. We interviewed
                   selected members of the Government Forum of Incident Response and
                   Security Teams, IT-Information Sharing and Analysis Center, IT-Sector
                   Coordinating Council, and the National Cyber Response Coordination Group
                   to obtain their perspective on how well NCSD is managing its mission and
                   working with its cyber partners. These groups were selected since the
                   members work with NCSD on a regular basis. We asked for feedback about
                   NCSD’s priorities, communications and information sharing, frustrations, and
                   positive aspects of NCSD.

                   During the audit, we reviewed applicable security policies, procedures, and
                   other appropriate documentation. In addition, we evaluated the quality of the
                   certification process for two of its mission support systems (Einstein and
                   Cybercop Portal) and determined whether the systems were accredited per
                   OMB and DHS guidance. We further tested security controls over the two
                   systems to ensure that effective controls have been implemented to protect the
                   information stored and processed by the systems. We used network
                   vulnerability assessment software (Tenable Network Security’s Nessus
                   Vulnerability Scanner, Internet Security Systems’ Internet Scanner) to detect
                   and analyze vulnerabilities on devices for the two systems at NCSD
                   headquarters, one federal agency, and contractor sites. Upon completion of
                   the assessments, we provided NCSD with the technical reports detailing
                   vulnerabilities detected and remediation actions needed.

                   We conducted our audit between October 2006 and January 2007 under the
                   authority of the Inspector General Act of 1978, as amended, and according to
                   generally accepted government auditing standards. Major OIG contributors to
                   the audit are identified in Appendix E.


                    Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                             Page 24
Appendix A
Purpose, Scope, and Methodology


                   The principal OIG points of contact for the audit are Frank W. Deffer,
                   Assistant Inspector General, IT Audits at (202) 254-4100 and
                   Edward G. Coleman, Director, Information Security Audit Division at
                   (202) 254-5444.




                    Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                               Page 25
Appendix B
Management Comments to the Draft Report




                   Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                            Page 26
Appendix B
Management Comments to the Draft Report




                   Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                            Page 27
Appendix B
Management Comments to the Draft Report




                   Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                            Page 28
Appendix B
Management Comments to the Draft Report




                   Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                            Page 29
Appendix B
Management Comments to the Draft Report




                   Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                            Page 30
Appendix B
Management Comments to the Draft Report




                   Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                            Page 31
Appendix B
Management Comments to the Draft Report




                   Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                            Page 32
Appendix B
Management Comments to the Draft Report




                   Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                            Page 33
Appendix B
Management Comments to the Draft Report




                   Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                            Page 34
Appendix C
NCSD Major Functions and Responsibilities


NCSD Director
The NCSD Director is responsible for issues related to the operation of the NCSD, such as human resources,
policy, and budget, as well as participation in international initiatives. The director develops the overall
strategic direction and priorities for the division, in line with CS&C goals and objectives. The director is
responsible for managing US-CERT—which is a partnership between NCSD and the public and private
sectors to make cyber security a coordinated, national effort; increase public awareness of cyber threats and
vulnerabilities; and improve computer security preparedness and response to cyber threats.
US-CERT Operations Branch
NCSD’s US-CERT Operations branch focuses on situational awareness, analytical cells, and federal
coordination. US-CERT is charged with protecting the nation’s Internet infrastructure by coordinating
defense against and response to cyber attacks. US-CERT is responsible for analyzing and reducing cyber
threats and vulnerabilities, disseminating cyber threat warning information, and coordinating incident
response activities. A key component of US-CERT is the National Cyber Security Response System
(Response System), which provides a nationwide, real-time collaborative information-sharing network to
enable communication and collaboration among DHS and federal, state, local, and international government
and law enforcement entities. Components of the Response System include the following:
    • The US-CERT Operations Center serves as a 24-hour-a-day/7-day-a week, real-time focal point for
         cyber security, conducting daily conference calls with U.S.-based watch and warning centers to share
         classified and unclassified security information.
    • The US-CERT Portal provides a Web-based collaborative system that allows US-CERT to share
         sensitive cyber-related information with members of government and industry.
    • The US-CERT Control Systems Security Center serves as an operational and strategic component of
         US-CERT’s capability to address the complex security issues associated with the use of control
         systems.
    • The US-CERT public web site provides government, the private sector, and the public with
         information they need to improve their ability to protect their information systems and infrastructures.
    • The National Cyber Alert System is to deliver targeted, timely, and actionable information to
         Americans to allow them to secure their computer systems.
    • The National Cyber Response Coordination Group brings together officials from federal agencies to
         coordinate public/private cyber preparedness and incident response.
    • The Government Forum of Incident Response and Security Teams is a community of government
         response teams that are responsible for securing government information technology systems. This
         forum works to understand and handle computer security incidents and to encourage proactive and
         preventative security practices.

Outreach and Awareness Branch
NCSD’s Outreach and Awareness branch is responsible for outreach, awareness, and messaging. The branch
promotes cyber security awareness among the general public and within key communities, maintains
relationships with governmental cyber security professionals to coordinate and share information about cyber
security initiatives, and develops partnerships to promote public/private coordination and collaboration on
cyber security issues.

The branch is organized into three functional areas: Stakeholder Outreach, Communications and Messaging,
and Coordination. The Stakeholder Outreach team serves to build and maintain relationships among and
between industry, government, and academia in order to raise cyber security awareness and secure
cyberspace. The Communications and Messaging team focuses on coordination of internal and external
communications.


                              Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                                     Page 35
Appendix C
NCSD Major Functions and Responsibilities


The Coordination team works to ensure collaboration on events and activities across NCSD and with other
DHS entities, including the public affairs, legislative affairs, and private-sector offices and others, as
appropriate. The team works to foster the department’s role as a focal point and coordinator for securing
cyberspace and implementing The National Strategy to Secure Cyberspace. The International Affairs
program engages in international outreach activities to build awareness about the global cyber risk, secure the
critical information infrastructure, establish information sharing relationships, communications mechanisms,
and collaborative arrangements, and institute collaborative arrangements for addressing critical information
infrastructure protection issues.
Law Enforcement and Intelligence Branch
The Law Enforcement and Intelligence branch of NCSD has two primary responsibilities: managing the
National Cyber Response Coordination Group and facilitating the coordination of law enforcement and
intelligence cyber-related efforts for NCSD. This branch serves as a liaison to the law enforcement and
intelligence communities and provides a mechanism for information sharing among the components
concerned with cyber issues of law enforcement, intelligence, and the private sector. This information
sharing includes all levels of information (classified, law enforcement sensitive, and unclassified).
Strategic Initiatives Branch
NCSD’s Strategic Initiatives branch is organized into seven programs with different responsibilities, as
follows:
    • The Critical Infrastructure Protection Cyber Security program is responsible for developing a critical
        infrastructure protection plan for the IT Sector, including the Internet, that will identify critical assets
        and vulnerabilities, map interdependencies, and promote cyber awareness throughout other sector
        specific plans.
    • The Control Systems Security program is responsible for facilitating control system incident
        management and security awareness, establishing an assessment capability for vulnerability reduction
        and incident response, creating a self-sustaining security culture within the control systems
        community, focusing attention on the protection of legacy control systems, and making strategic
        recommendations for the future of control systems and security products.
    • The Software Assurance program presents a framework for promoting and coordinating efforts to
        improve the security, reliability, and safety of software.
    • The Training and Education program is responsible for promoting the development of an adequate
        number of effective cyber security professionals, enhancing cyber security capabilities within the
        federal workforce by identifying the skills and abilities necessary for specific job tasks, and working
        with other organizations to develop content standards for training products and for certifications.
    • The Cyber Exercise program is charged with improving the nation’s ability to respond to cyber
        incidents by creating, sponsoring, and learning from international, national, regional, and interagency
        exercises. The team is responsible for planning and coordinating cyber security exercises with
        internal and external DHS stakeholders.
    • The Standards and Best Practices/Research and Development Requirements program works to
        encourage technology innovation efforts. The team is responsible for identifying cyber security
        research and development requirements and cyber security standards issues, and for assembling and
        distributing information on best practices.
    • The Information Systems Security Line of Business program provides leadership and direction for
        improving information systems security services across the federal government. The programs works
        to achieve more consistent security management processes and controls across government through
        the reuse of proven best practices, and by promoting savings through reduced duplication and
        economies of scale for common hardware, software, and shared services.

                               Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                                      Page 36
Appendix D
Federal Agency Incident Categories



Category         Name                              Description                             Reporting Timeframe
CAT 0 Exercise/Network           This category is used during state, federal,        Not Applicable; this category is
      Defense Testing            national, international exercises and approved      for each agency's internal use
                                 activity testing of internal/external network       during exercises.
                                 defenses or responses.
CAT 1 Unauthorized Access        In this category an individual gains logical or Within one (1) hour of
                                 physical access without permission to a federal discovery/detection.
                                 agency network, system, application, data, or
                                 other resource
CAT 2 Denial of Service          An attack that successfully prevents or impairs     Within two (2) hours of
                                 the normal authorized functionality of              discovery/detection if the
                                 networks, systems or applications by                successful attack is still ongoing
                                 exhausting resources. This activity includes        and the agency is unable to
                                 being the victim or participating in the Denial     successfully mitigate activity.
                                 of Service.
CAT 3 Malicious Code             Successful installation of malicious software       Daily
                                 (e.g., virus, worm, Trojan horse, or other code-    Note: Within one (1) hour of
                                 based malicious entity) that infects an operating   discovery/detection if widespread
                                 system or application. Agencies are NOT             across agency.
                                 required to report malicious logic that has been
                                 successfully quarantined by antivirus software.
CAT 4 Improper Usage             A person violates acceptable computing use          Weekly
                                 policies.
CAT 5 Scans/Probes/Attempted This category includes any activity that seeks to       Monthly
      Access                 access or identify a federal agency computer,           Note: If system is classified,
                             open ports, protocols, service, or any                  report within one (1) hour of
                             combination for later exploit. This activity            discovery.
                             does not directly result in a compromise or
                             denial of service.
CAT 6 Investigation              Unconfirmed incidents that are potentially    Not Applicable; this category is
                                 malicious or anomalous activity deemed by the for each agency's use to categorize
                                 reporting entity to warrant further review.   a potential incident that is
                                                                               currently being investigated.




                             Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                                     Page 37
Appendix E
Major Contributors to this Report



                    Information Security Audits Division

                    Edward G. Coleman, Director
                    Jeff Arman, Audit Manager
                    Chiu-Tong Tsang, Audit Team Leader
                    Jason Bakelar, Information Technology Specialist
                    Charles Twitty, Auditor

                    Tarsha Ross, Referencer

                    Advanced Technology Division

                    David Hawkins, Senior Security Engineer




                        Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                             Page 38
Appendix F
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      Under Secretary for National Protection and Programs
                      Assistant Secretary for Office of Cyber Security and Communications
                      Chief Information Officer
                      Deputy Chief Information Officer
                      Chief Information Security Officer
                      Director, Compliance and Oversight Program
                      Director, National Cyber Security Division
                      Director, DHS GAO/OIG Liaison Office
                      Chief Information Officer Audit Liaison
                      National Protection and Programs Audit Liaison
                      National Protection and Programs Information Systems Security Manager
                      Director, OIG Information Security Audit Division
                      Chief Privacy Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                          Challenges Remain in Securing the Nation’s Cyber Infrastructure

                                               Page 39
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
